                                                     NATIONAL SCIENCE FOUNDATION '
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFF1CE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

  eaSEl Number:AI0020011                                                                    Page lof 1


                           \

                  We reviewed an allegation of plagiarism in an NSF proposal. 1 We contacted the Subj ect2,
          wl10 acknowledged having inadequately cited material and said slie would work with her academic
          advisor ,to develop a better system of citation.

                 Determining the amount of copied text to be de minimis, we sent the Subject a letter,
          reminding her of the importance of properly citing text within NSF proposals.

                    Accordingly, this case is closed. ­




                                                                    awarded)




NSF OIG Form 2 (11/02)
